TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Low Participation and Tax Return Volumes
                     Continue to Hinder the Transition of
                    Individual Income Tax Returns to the
                          Modernized e-File System



                                      September 29, 2011

                              Reference Number: 2011-40-131




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      HIGHLIGHTS


LOW PARTICIPATION AND TAX RETURN                          19 (28 percent) of the 67 tax return preparation
VOLUMES CONTINUE TO HINDER THE                            software packages used to file tax returns in the
TRANSITION OF INDIVIDUAL INCOME                           Legacy e-File system were used to file MeF tax
TAX RETURNS TO THE MODERNIZED                             returns. Also, the IRS received only 8.7 million
                                                          individual tax returns through the MeF system as
E-FILE SYSTEM
                                                          of April 18, 2011, significantly lower than the
                                                          35 million tax returns the IRS expected for the
Highlights                                                2011 Filing Season.
                                                          Finally, the IRS has not pursued the use of the
Final Report issued on                                    MeF system as an option to scan and attach
September 29, 2011                                        supplemental information to e-filed tax returns.
                                                          WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2011-40-131
to the Internal Revenue Service Commissioner              TIGTA recommended that the Commissioner,
for the Wage and Investment Division.                     Wage and Investment Division, develop a
                                                          comprehensive testing plan to ensure MeF
IMPACT ON TAXPAYERS                                       system processing is accurate and adheres to
The Internal Revenue Service (IRS) continues to           the methodology developed. In addition, the
transition from its existing electronic filing (e-file)   IRS should correct the 12 errors TIGTA
platform, referred to as the Legacy e-File                identified in our prior review of MeF system
system, to the Modernized e-File (MeF) system.            processing and continue to work with tax return
The MeF system provides real-time processing              transmitters and States to identify and address
of tax returns and extensions that will improve           concerns with MeF system performance. The
error detection, standardize business rules, and          IRS should also ensure MeF system testing
expedite acknowledgments.                                 includes testing of system performance, stability
                                                          of web services, and processing capacity.
WHY TIGTA DID THE AUDIT                                   Finally, the IRS should adequately test the MeF
                                                          system’s ability to receive, process, store, and
This audit was initiated because, once fully
                                                          retrieve tax return attachments and promote the
implemented, the MeF system will replace the
                                                          use of such attachments.
current Legacy e-file system. The objective of
this review was to evaluate the continued                 IRS management agreed with four of our six
implementation of the MeF system to determine             recommendations. Management did not agree
whether individual income tax returns will be             to develop a comprehensive testing plan and
accurately and timely processed and whether               indicated that the MeF system was developed
sufficient progress is being made to replace the          under the Enterprise Life Cycle guidance, which
Legacy e-File system.                                     included various testing and certification
                                                          processes. Notwithstanding, the IRS’s
WHAT TIGTA FOUND                                          three-phase plan to test the processing of tax
Processes used to test and monitor the MeF                returns through the MeF system in the
system do not ensure MeF system business                  2011 Filing Season was incomplete, and the IRS
rules designed to validate basic requirements on          did not fully execute the steps in the test plan.
a tax return are working as intended. As a                Management also disagreed with the
result, the IRS continues to have limited                 recommendation to correct the 12 errors TIGTA
assurance that the MeF system is accurately               identified in its review during the 2010 Filing
processing individual tax returns.                        Season that resulted in incorrect notifications to
In addition, lower than expected tax return               taxpayers when tax returns were rejected. The
transmitter participation and tax return volumes          IRS indicated it had already corrected this
raise significant concerns regarding the IRS’s            problem; however, it has not provided any
ability to fully replace the Legacy e-File system         evidence the problem has been corrected.
for the 2013 Filing Season. For example, only
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 29, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Low Participation and Tax Return Volumes
                             Continue to Hinder the Transition of Individual Income Tax Returns to
                             the Modernized e-File System (Audit # 201140030)

 This report presents the results of our review to evaluate the continued implementation of the
 Modernized e-File (MeF) system to determine whether individual income tax returns will be
 accurately and timely processed and whether sufficient progress is being made to replace the
 Legacy e-File system for individual tax returns in the 2013 Filing Season. This audit is included
 in our Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of
 Implementing Health Care and Other Tax Law Changes.
 In response to the report, Internal Revenue Service (IRS) management stated that the report
 contains mischaracterizations with respect to the overall quality control process and disagreed
 with our characterization that the MeF system underwent “limited testing” because our report
 principally focuses on post-deployment verification steps. We are concerned with IRS
 management’s response in that they are fully aware that we have conducted both pre-deployment
 and post-deployment reviews. The IRS’s pre-deployment efforts are addressed in a separate
 report issued earlier this year.1 Management also indicated the comparison of the number of tax
 returns filed with the MeF system to the number of tax returns prepared using MeF tested and
 approved software is not a valid comparison. We are concerned with this statement also because
 we used this comparison at the request of IRS management. IRS management provided us with
 the information needed to make this comparison.
 Management’s complete response to the draft report is included in Appendix VI.



 1
  The Modernized e-File Release 6.2 Included Enhancements, but Improvements Are Needed for Tracking
 Performance Issues and Security Weaknesses (Reference Number 2011-20-088, issued September 8, 2011).
                    Low Participation and Tax Return Volumes Continue to
                    Hinder the Transition of Individual Income Tax Returns
                               to the Modernized e-File System


Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
Account Services), at (202) 622-5916.




                                                                                       2
                             Low Participation and Tax Return Volumes Continue to
                             Hinder the Transition of Individual Income Tax Returns
                                        to the Modernized e-File System




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Validation and Monitoring of Modernized e-File System
          Processing Continues to Be Deficient .......................................................... Page 4
                    Recommendation 1:........................................................ Page 9

                    Recommendation 2:........................................................ Page 10

          Lower Than Expected Tax Return Transmitter
          Participation and Tax Return Volumes Continue to Affect
          the Ability to Evaluate the Modernized e-File System ................................. Page 11
                    Recommendation 3:........................................................ Page 18

                    Recommendation 4:........................................................ Page 19

          Key Functionality of the Modernized e-File System to
          Attach Scanned Documents to Individual Tax Returns
          Is Not Being Promoted or Used .................................................................... Page 19
                    Recommendations 5 and 6: .............................................. Page 21


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
          Appendix IV – Individual Tax Return Forms and Schedules Included for
          Processing in the Modernized e-File System Release 6.2 Deployment........ Page 26
          Appendix V – Description of Modernized e-File System Release 6.1
          Errors Not Corrected During the 2010 Filing Season ................................... Page 27
          Appendix VI – Management’s Response to the Draft Report ...................... Page 30
                      Low Participation and Tax Return Volumes Continue to
                      Hinder the Transition of Individual Income Tax Returns
                                 to the Modernized e-File System




                                   Abbreviations

e-file(d); e-filing         Electronically file(d); electronic filing
IRS                         Internal Revenue Service
MeF                         Modernized e-File
PDF                         Portable Document Format
SSN                         Social Security Number
TY                          Tax Year
XML                         Extensible Markup Language
                         Low Participation and Tax Return Volumes Continue to
                         Hinder the Transition of Individual Income Tax Returns
                                    to the Modernized e-File System




                                             Background

The Modernized e-File (MeF) system is a modernized, Internet-based electronic file (e-file)
platform that is replacing the current Internal Revenue Service (IRS) e-filing system (referred to
as the Legacy e-File system). Tax returns and attachments submitted through the MeF system
use extensible markup language (XML), which is a different format than used in the Legacy
e-File system.1 Once fully implemented, the MeF system will provide a single method for filing
all business and individual tax returns, forms, and schedules via the Internet. The MeF system
provides real-time processing of tax returns that improves error detection, standardizes business
rules, and expedites acknowledgments. The MeF system also allows for attachments in Portable
Document Format (PDF).2 Figure 1 provides a comparison of key features between the MeF and
Legacy e-File systems.
               Figure 1: Comparison of the MeF and Legacy e-File Systems

      Condition                     MeF e-File System                          Legacy e-File System
                                                                     American Standard Code for Information
Data Format                  XML.
                                                                     Interchange.
Attachments                  Accepted in the PDF.                    No attachments accepted.
                                                                     Batch return system with batches
                             Transaction based system –
Transmissions                                                        processed three times daily to process
                             processed on receipt.
                                                                     transmissions.
                             Acknowledgments returned in             Acknowledgments returned within
Acknowledgements
                             real-time.                              2 calendar days of receipt.
                             Business rules for each error           Error reject codes that may address
Tax Return Errors
                             condition.                              multiple conditions.
Processing Year              Year-round processing.                  No e-filed tax returns after October 15.
                             Prior year tax returns accepted         Prior year tax returns are not accepted via
Prior Year Returns
                             in the 2011 Filing Season.3             e-file.
Source: IRS MeF and Legacy e-File systems documentation.


1
  The XML can be used, especially on the worldwide web, to create a tagging scheme that allows elements of a
document to be marked according to their content rather than their format.
2
  The PDF is a file format for representing documents in a manner that is independent of the original application
software, hardware, and operating system used to create those documents.
3
  The period from January through mid-April when most individual income tax returns are filed. However,
individuals may continue to file tax returns through October if they apply for an extension of time to file.
                                                                                                             Page 1
                        Low Participation and Tax Return Volumes Continue to
                        Hinder the Transition of Individual Income Tax Returns
                                   to the Modernized e-File System



MeF system Release 6.2 includes the ability to file a U.S. Individual Income Tax
Return (Form 1040) for Tax Years (TY)4 2009 (prior year) and 2010 (current year)
The first phase of the MeF system (Release 6.1) for individual income tax returns included the
Form 1040, Application for Automatic Extension of Time To File U.S. Individual Income Tax
Return (Form 4868), and 21 forms and schedules related to the Form 1040 for TY 2009. The
IRS first began accepting individual tax returns through the MeF system in February 2010.
The second phase of the MeF system (Release 6.2) for individual income tax returns was
implemented during the 2011 Filing Season. Release 6.2 does not provide for the filing of any
additional tax forms or schedules. The primary difference between the functionality of Releases
6.1 and 6.2 is the ability for individual taxpayers to file prior year tax returns. For example, for
the 2011 Filing Season, individual taxpayers were able to file both their TY 2009 and TY 2010
tax returns using the MeF system. Appendix IV details specific tax forms and schedules that
were accepted by the MeF system as part of Release 6.2.
The IRS plans to fully implement the MeF system during the 2012 Filing Season, with the
expectation that all individual income tax returns currently processed through the Legacy e-File
system will be able to be filed through the MeF system. This includes expanding the MeF
system to process the remaining 129 individual tax forms and schedules currently accepted by
the Legacy e-File system. The current Legacy e-File system is scheduled to be retired at the end
of the 2012 Filing Season (October 2012).

Individual tax returns processed through the MeF system must pass validation
rules to be accepted for processing
The MeF system uses three levels of validation. Once a tax return has passed all three levels of
validation, it will enter the IRS’s tax return validation stream. While this is a different approach
to validating tax returns than the one currently employed by the Legacy e-File system, all of the
Legacy system’s error reject codes will be included in the three levels of MeF system validation.
The three levels of validation include:
Level 1 – Schema Validation – A MeF system tax return is divided into a series of different data
structures. Schemas provide the basic definitions for the data elements within each data structure
and the interrelationships among the data elements (i.e., what is required, field length, data type,
allowable field values, etc.). The MeF system verifies the accuracy of the data format in the tax
return by validating each tax return against the individual schemas. If an error is found during
the schema validation, the tax return is rejected.




4
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 2
                         Low Participation and Tax Return Volumes Continue to
                         Hinder the Transition of Individual Income Tax Returns
                                    to the Modernized e-File System



Level 2 – National Account Profile5 Checks – The taxpayer, spouse, and dependent name
controls and Social Security Numbers (SSN) contained on the tax return must match the
information on the National Account Profile before the IRS will accept the tax return for
processing. The MeF system conducts the same basic verification as the Legacy e-File system.
As with schema validations, a tax return is rejected if it fails one or more of the National
Account Profile validations.
Level 3 – Business Rule Check – The IRS established criteria or business rules that each tax
return must pass before it can be processed electronically. The business rules are designed to
validate basic requirements on a tax return, such as income limits for tax credits and deductions
and the need to attach a specific schedule if certain conditions are present on the tax return. A
tax return will be rejected if one or more of the business rules are not met.
This review was performed at the Wage and Investment Division Office of Electronic Tax
Administration Headquarters in Washington, D.C., and the Modernization and Information
Technology Services organization Headquarters in New Carrollton, Maryland, during the period
January to June 2011. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.
However, our ability to sufficiently determine if the MeF system was accurately rejecting and
accepting tax returns was limited due to problems obtaining complete electronic MeF system
data timely. The IRS was unable to extract MeF system data for us in real-time, and our
programmers encountered problems obtaining direct access due to problems interfacing with the
IRS’s Oracle platform. As a result, our assessment of whether the MeF system was accurately
accepting or rejecting tax returns was based on our evaluation of the IRS’s process to ensure the
accuracy of system processing and conducting alternate testing, including determining whether a
judgmental sample of tax returns was correctly accepted or rejected for processing. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
  The National Account Profile is a compilation of selected entity data from the IRS Master Files, which are the
databases that store various taxpayer information. The National Account Profile includes all valid and invalid
taxpayer entity information.
                                                                                                             Page 3
                       Low Participation and Tax Return Volumes Continue to
                       Hinder the Transition of Individual Income Tax Returns
                                  to the Modernized e-File System




                                   Results of Review

Validation and Monitoring of Modernized e-File System Processing
Continues to Be Deficient
Processes used to validate and monitor MeF system processing do not ensure the accuracy of
processing of individual tax forms and schedules, including MeF system business rules designed
to validate basic requirements on a tax return. As a result, the IRS continues to have limited
assurance that the MeF system is accurately processing individual tax returns. Ineffective or
insufficient monitoring of tax return processing increases the risk that individual tax returns
processed through the MeF system will be erroneously accepted or rejected. This risk will grow
as the volume of tax returns processed through the MeF system increases and the types of forms
                                       and schedules are expanded.
        IRS processes were not        Although no new forms or schedules were added for the
        effective in ensuring the     2011 Filing Season, the IRS still had to modify its
      accuracy of 56,224 rejected     computer programs to ensure they accurately reflect the
       tax returns and more than      tax law in effect for the applicable tax year. For example,
    1.3 million accepted tax returns.
                                      for the 2011 Filing Season, the IRS had to ensure inflation
                                      adjustments, adjustments to income limits, new tax credits,
and other legislative changes were correctly programmed and applied to TY 2010 tax returns in
addition to maintaining the TY 2009 amounts. For the 2011 Filing Season, the IRS had
28 documented requests for MeF system programming changes to correct system errors in
addition to the changes necessary to implement new tax legislation. Despite the substantial
modifications made for the 2011 Filing Season, system validation was deficient to ensure the
accuracy of these modifications as they relate to the processing of tax returns through the MeF
system.
The inadequacy of processes to test and monitor the MeF system is the same condition we
reported in our review of MeF system processing in the 2010 Filing Season.6 We reported that
the IRS’s monitoring of MeF system processing was ineffective. To address these concerns, we
recommended that the IRS establish processes to timely monitor the transmission and processing
of tax returns through the MeF system. The established processes should identify trends that
may indicate problems with the inaccurate rejecting or accepting of tax returns and ensure
rejected tax return explanations sent back to individuals are correct.

6
 System Errors and Lower Than Expected Tax Return Volumes Affected the Implementation of the Modernized
e-File System for Individual Income Tax Return Processing (Reference Number 2010-40-111, dated
September 8, 2010).
                                                                                                    Page 4
                        Low Participation and Tax Return Volumes Continue to
                        Hinder the Transition of Individual Income Tax Returns
                                   to the Modernized e-File System



The IRS agreed with our recommendation, indicating that for the 2011 Filing Season, the IRS
would use a computer application to analyze available tax return data to identify trends that may
indicate errors in tax return processing and to ensure rejected tax return explanations are correct.
The IRS noted that these capabilities would enhance its ability to select an optimal sample size of
MeF system tax returns to review, enhance the effectiveness of the actual review of those tax
returns, and improve the overall monitoring of tax returns as they are processed. While the IRS
took actions to address our concerns, the actions taken were insufficient and resulted in little
improvement in the monitoring of individual tax returns e-filed through the MeF system.

Limited testing significantly restricted the IRS’s ability to determine if the MeF
system is accurately processing individual tax returns
For the 2011 Filing Season, the IRS developed a three-phase plan to test the processing of
individual tax returns once Release 6.2 was implemented. Figure 2 provides a description of the
three-phase test plan.
                       Figure 2: MeF System Release 6.2 Hub Testing
                       and Production Processing Events and Timeline

Testing Phase                       Description of Testing Phase                             Period Tested
                    The first phase of production validation testing occurred               January 11, 2011,
                    1 to 2 weeks before the official startup of the MeF system.                 through
                    During Hub Testing, a limited number of tax returns were                January 13, 2011
Hub Testing         transmitted through the MeF production system by a limited
                    number of transmitters; they were processed and sent to other
                    downstream systems to validate that they were being
                    processed accurately from beginning to end.
                    The second part of production validation testing occurred after         January 18, 2011,
Production          the completion of Hub Testing. Production Processing                        through
Processing          Validation continued at production startup and lasted for               January 28, 2011
Validation          2 weeks or until the number of rejected tax returns was similar
                    to the rate of rejected tax returns in the Legacy e-file system.
                  The third testing process of production validation was limited to         February 13, 2011
Form 1040         Form 1040 Itemized Deductions (Schedule A). A limited
Schedule A        number of Schedule A transmissions were received from a
Production        limited number of transmitters to help test the programming
Validation        requirements.7 This was necessary because of the passage of
                  late tax legislation that affected certain itemized deductions.
Source: MeF System Release 6.2 Hub Testing and Production Validation Plan.


7
 The IRS had to delay the processing of tax returns with an accompanying Schedule A to allow sufficient time to
complete computer programming changes necessary for items on the Schedule A as a result of late legislation. The
IRS began processing the Schedule A on February 14, 2011.
                                                                                                         Page 5
                          Low Participation and Tax Return Volumes Continue to
                          Hinder the Transition of Individual Income Tax Returns
                                     to the Modernized e-File System



Our review determined that IRS plans to validate and monitor MeF system processing for
the 2011 Filing Season individual tax returns were incomplete. Specifically, the IRS’s plans did
not include steps to verify the accuracy of all MeF system business rules and to ensure individual
tax forms and schedules were accurately processed.
In addition, for the steps included in the plan, the IRS did not fully execute the steps, which
further resulted in incomplete validation. These deficiencies significantly limit the IRS’s ability
to determine if the MeF system is processing individual tax returns accurately. Specifically, the
IRS did not:
    •    Complete its review of 25,469 (98.7 percent) of the 25,794 TY 2010 accepted tax returns
         and 12,601 (91.9 percent) of the 13,709 TY 2010 rejected tax returns that should have
         been tested according to the IRS’s validation plan.8 In fact, the IRS only reviewed
         1,108 (0.84 percent) of the 132,684 total TY 2010 tax returns that had rejected as of the
         end of the IRS’s validation period (January 28, 2011).
    •    Validate the accuracy of MeF system processing for 176 of the 377 TY 2010 business
         rules because no tax returns rejected for these 176 business rules during the IRS’s test
         period. The IRS did not expand its test period or conduct additional testing to ensure
         these 176 business rules were functioning properly. Our analysis of tax returns rejected
         by the MeF system as of April 18, 2011, identified 56,224 tax returns that had one or
         more reject conditions relating to these 176 business rules.
    •    Adequately validate 3 of the 23 TY 2010 tax forms and schedules eligible for MeF
         system processing. These forms are for reporting employee business expenses, noncash
         contributions greater than $500, and penalties for underpayments of estimated taxes. The
         IRS had no plans to review two of these forms, and for the remaining form, the IRS did
         not receive an adequate number of tax returns containing this form during the test period.
         Our analysis of tax returns accepted by the MeF system as of April 18, 2011, showed that
         more than 1.3 million tax returns accepted through the MeF system could have included
         one of these forms.9
In addition, the IRS completed all of its testing on January 28, 2011, less than 2 weeks after the
filing season began on January 18, 2011. With the exception of 1 day of testing for the
Form 1040 Schedule A on February 13, 2011, the IRS did not conduct any additional testing of
MeF system processing. Our analysis of tax returns transmitted through the MeF system as of
April 18, 2011, identified that the IRS had received less than 16 percent (1.37 million) of the
8.7 million tax returns before it had completed testing of MeF system processing.

8
  One objective of the IRS’s validation plan included identifying a statistically valid sample to be used to review and
validate production processing end-to-end to ensure that returns are being processed properly.
9
  These tax returns contain information that would indicate the taxpayer may be required to file one or more of the
tax forms in question. However, the IRS does not require the taxpayer to attach the tax form if certain conditions are
met.
                                                                                                              Page 6
                      Low Participation and Tax Return Volumes Continue to
                      Hinder the Transition of Individual Income Tax Returns
                                 to the Modernized e-File System



The IRS limited its testing by time period rather than by testing of specific tax forms, schedules,
or business rules. By limiting testing to the beginning of the filing season, the IRS was only able
to validate those tax forms, schedules, and business rules that related to those tax returns filed
during this limited time period. Prior filing season trends indicate that some tax forms and
schedules are more prevalent during different times of the filing season. As a result, tax returns
filed early in the filing season would not be representative of all tax returns filed during the filing
season.
We discussed with IRS management our concerns with the IRS’s efforts to verify the accuracy of
MeF system processing of individual tax returns. Management indicated that they had to reduce
the number of individual tax returns verified during testing due to limited resources. In addition,
management indicated that they believed a minimum sample of 10 of any one tax form or
schedule was sufficient to provide assurance that the business rules applicable to that form were
functioning properly. However, the IRS did not ensure that a minimum of 10 of each tax form or
schedule submitted through the MeF system was tested. Our review of Release 6.1 found that
the correct application of a given business rule can be affected by the conditions present on each
individual tax return. As a result, an error in the application of a business rule may not appear on
the first 10 tax returns rejected for that rule.

The MeF system individual tax return test plan did not include an adequate review
of prior year tax returns
Acceptance of prior year tax returns was the sole new functionality in place for the 2011 Filing
Season. Prior to implementation of the MeF system, individuals who needed to file a tax return
for a prior tax year had to file their tax return on paper, lengthening the time it takes the IRS to
process the tax return and issue any associated refund. Our analysis of the IRS’s testing of the
processing of TY 2009 individual tax returns during the 2011 Filing Season identified that the
IRS did not test 12 (54.5 percent) of the 22 TY 2009 tax forms and schedules. According to the
IRS, 2,519 TY 2009 individual tax returns were transmitted through the MeF system as of
April 18, 2011. Of the 2,519 tax returns transmitted,
634 were rejected.
                                                              The IRS did not adequately test
The IRS indicated that it evaluated the processing of          the accuracy of processing of
TY 2009 individual tax returns received early in the        prior year tax returns despite that
2011 Filing Season. The IRS received 5 percent of            it was the only new functionality
all rejected and accepted TY 2009 individual tax                 for the 2011 Filing Season.
returns during the testing period for prior year tax
returns. Due to the limited number of tax returns reviewed during the testing process, the IRS
cannot be assured that significant errors do not exist in the processing of individual tax returns.
Some of the errors we reported in our review of MeF system processing of individual tax returns
during the 2010 Filing Season occurred on 1 or more of the 12 TY 2009 tax forms the IRS did
not test. For example:

                                                                                                Page 7
                          Low Participation and Tax Return Volumes Continue to
                          Hinder the Transition of Individual Income Tax Returns
                                     to the Modernized e-File System



     •    Our previous review identified two errors associated with the Child and Dependent Care
          Expenses (Form 2441) during the 2010 Filing Season. The MeF system was incorrectly
          rejecting tax returns when there were multiple dependents identified and the qualified
          expenses were not child specific. In addition, the MeF system did not include an
          exception to the two-income requirement when a date of death existed for either the
          primary or secondary taxpayer.
     •    Our previous review indentified a missing business rule in the MeF system to address the
          reporting requirements for taxable interest and dividends on the Interest and Ordinary
          Dividends (Schedule B).

The IRS did not ensure that errors identified in the 2010 Filing Season were
corrected prior to processing individual tax returns in the 2011 Filing Season
In our testing of individual tax returns processed through the MeF system during the 2010 Filing
Season, 19 (66 percent) of the 29 business rules10 we analyzed as of April 21, 2010, appeared to
reject in error or reject the tax returns without providing accurate explanations as to why they
were rejected. Although the IRS took immediate action to correct 6 of the 19 errors, it could not
immediately correct 13 of the 19 errors and indicated the errors would be corrected at a later
date. We found that while the IRS took actions to prevent tax returns from rejecting for 12 of the
13 errors we identified in Fiscal Year 2010,11 the action taken did not always correct the
condition that caused the errors and undermined the benefits of the MeF system. For example:12
         During MeF system validation, the IRS determines that the SSN for the child claimed as a
         dependent on the individual’s tax return is not a valid SSN (the SSN was not issued by the
         Social Security Administration). The MeF system correctly rejects the tax return and
         notifies the individual that the child’s SSN is not valid. The MeF system also notifies the
         taxpayer that the amount of the Health Savings Account Deduction claimed on the tax
         return exceeds the maximum allowable amount. However, the notification is incorrect as
         the amount claimed for the Health Savings Account Deduction is within the allowable
         limit; therefore, the individual should never have received this notification.
In the example above, rather than fixing the condition that caused the incorrect notification to be
sent, the IRS instead programmed the MeF system to not verify specific business rules if certain
conditions existed on the tax return. The IRS programmed the MeF system to bypass the
validation of the maximum Health Savings Account Deduction limit if the child’s SSN is not
valid. As a result, the MeF system will not determine if the amount of the Health Savings


10
   We selected these business rules for review based on the volume and concerns identified prior to the IRS
accepting tax returns through the MeF system on February 17, 2010.
11
   See Appendix V for a description of the six broad issues that resulted from the errors we identified on the
13 business rules in the 2010 Filing Season.
12
   This example is hypothetical.
                                                                                                                 Page 8
                      Low Participation and Tax Return Volumes Continue to
                      Hinder the Transition of Individual Income Tax Returns
                                 to the Modernized e-File System



Account Deduction exceeds the maximum allowable amount until after the taxpayer corrects the
child’s SSN and resubmits the tax return. Subsequent to correcting the child’s SSN, if the IRS
determines there is an error with the Health Savings Account Deduction, the tax return will be
rejected to the taxpayer again.
One of the benefits of the MeF system is the ability to identify multiple errors on a tax return
before the tax return is rejected. The IRS’s intent is to have the MeF system identify multiple
errors on a tax return before rejecting the tax return so the taxpayer can address all of the errors
at the same time. Programming the MeF system to bypass some checks when certain conditions
exist undermines the intent of the streamlined validation process and reduces the benefits that the
MeF system provides to taxpayers.
In response to concerns we raised regarding inadequate testing, IRS management indicated that
post-implementation testing should be considered in conjunction with the IRS’s
pre-implementation testing to determine if testing was sufficient. We agree that the combination
of pre- and post-implementation testing should provide the IRS assurance that MeF system
Release 6.2 is functioning properly. However, our analysis of the IRS’s pre-implementation
testing indicates that processes are not in place to ensure identified errors are corrected before the
initiation of processing. Our analysis of the MeF Release 6.2 pre-implementation test results
indicated that the IRS again identified errors during testing and not all of the errors were
corrected before Release 6.2 was deployed on January 18, 2011. As a result, we cannot rely on
the IRS’s use of pre-implementation testing for determining if specific business rules, tax forms,
and schedules are being processed correctly through the MeF system. We identified this same
issue during the 2010 Filing Season.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a comprehensive testing plan to ensure that a representative
sample of all tax forms, schedules, and business rules applicable to individual tax returns
transmitted through the MeF system (rejected and accepted) throughout the filing season is
reviewed and all business rules applicable to those tax returns are verified. In addition, the
Commissioner should ensure that the IRS adheres to the methodology developed for testing the
accuracy of MeF system processing.
       Management’s Response: IRS management disagreed with this recommendation.
       The MeF system was developed under the guidance on the Enterprise Life Cycle –
       Enterprise Life Cycle Guidance, IRM 2.16.1. The Enterprise Life Cycle is the approach
       used by the IRS to manage initiatives and implement changes in business information
       systems. It provides a comprehensive project management structure for systems
       development that includes extensive planning, risk analysis, development, testing,
       milestone reviews, and certification processes. Testing activities include System

                                                                                               Page 9
                     Low Participation and Tax Return Volumes Continue to
                     Hinder the Transition of Individual Income Tax Returns
                                to the Modernized e-File System



       Acceptability Tests, System Integration Tests, Government Acceptance Tests, and
       Final Integration Tests. Prior to its deployment into the production environment, MeF
       Release 6.2, used in the 2011 Filing Season, was cleared by the Submission Processing
       Executive Steering Committee as having met and passed all milestone objectives and
       requirements.
       Office of Audit Comment: We have and will continue to conduct both a
       pre-deployment and post-deployment review of the MeF system. As IRS management
       indicates in their response, after-the-fact verification once a system is in use is a
       necessary element. Our review focused on the IRS’s efforts to ensure individual tax
       returns are accurately and timely processed. In response to our previous review, the IRS
       indicated that it would implement a three-phase plan to test the processing of tax returns
       through the MeF system in the 2011 Filing Season. However, as we reported, the IRS’s
       plan was incomplete, and the IRS did not fully execute the steps included in the test plan.
Recommendation 2: Correct the 12 errors we identified in our review of MeF system
processing during the 2010 Filing Season that resulted in incorrect notifications to the taxpayers
when the tax returns were rejected. Actions taken should address the cause of the error, not
simply prevent the notifications from occurring.
       Management’s Response: IRS management disagreed with this recommendation.
       The 12 errors were not related to any coding defect in the National Account Profile or the
       business rules. The problem was with incorrect entity data provided by the taxpayer on
       the tax return. Since the 12 business rules reference the same entity data, if the business
       rule results in a reject, any of the remaining business rules may reject as well. The
       corrective action the IRS took was to program the MeF system to bypass the remaining
       business rules (preventing the erroneous notifications) and subsequently reject the return.
       Once the taxpayer or preparer corrects the entity information and the return is
       resubmitted, the business rules and the National Account Profile can then accurately
       validate the data.
       Office of Audit Comment: In response to our initial inquiry regarding these errors,
       IRS management agreed that the MeF system inappropriately and unnecessarily applied
       additional business rules when certain business rules were applied. They indicated that
       programming changes required to fix the problem were “complex and too risky” to
       implement during the 2010 Filing Season and would be implemented as part of a future
       MeF system release. They further indicated that interim actions (the suppression of the
       erroneous rejects) would be taken to mitigate the burden on taxpayers. To date, the IRS
       has not provided us with any information supporting that the actions taken to reduce
       taxpayer burden corrected the programming errors we identified.




                                                                                           Page 10
                       Low Participation and Tax Return Volumes Continue to
                       Hinder the Transition of Individual Income Tax Returns
                                  to the Modernized e-File System



Lower Than Expected Tax Return Transmitter Participation and Tax
Return Volumes Continue to Affect the Ability to Evaluate the
Modernized e-File System
Lower than expected tax return transmitter participation and tax return volumes raise significant
concern regarding the IRS’s ability to ensure the MeF system can accurately process large
volumes of e-filed tax returns and the IRS’s ability to fully replace the Legacy e-File system for
the 2013 Filing Season. Any disruption in the processing of e-filed individual tax returns after
the IRS retires its Legacy e-file system could be catastrophic to the success of the IRS’s e-File
Program and its ability to successfully complete the processing of individual tax returns during
the 2013 Filing Season.
Despite the IRS’s continued efforts to encourage tax return transmitters and States to use the
MeF system for e-filing individual tax returns, the volume of individual tax returns transmitted
                                    through the MeF system continues to be significantly lower
       The IRS continues to         than the IRS expected. As a result, the IRS is still unable to
    receive significantly fewer     adequately test the system’s capability to simultaneously
       individual tax returns       process large volumes of individual tax returns. For example,
     through the MeF system         on the highest volume day, the Legacy e-File system
  than is needed to adequately
       test system capacity.        processed  3,352,201 e-filed tax returns compared to the MeF
                                    system’s highest volume day with 329,463 e-filed tax returns
                                    processed. Figure 3 provides a comparison of the number of
tax returns transmitted daily through the MeF system and the Legacy e-file system from
January 21, 2011, through April 18, 2011.
    Figure 3: Comparison of Tax Returns Transmitted Daily Through the MeF
    and Legacy e-File Systems From January 21, 2011, Through April 18, 2011




  Source: Our analysis of 2011 Filing Season statistics for Form 1040 transmissions through April 18, 2011.

                                                                                                       Page 11
                     Low Participation and Tax Return Volumes Continue to
                     Hinder the Transition of Individual Income Tax Returns
                                to the Modernized e-File System



The two primary goals to be achieved during the first two phases of MeF system implementation
(2010 and 2011 Filing Season) were to allow the IRS to test the MeF system’s basic functionality
and ability to receive and process a large number of individual tax returns simultaneously. In
addition, the phased-in approach would provide tax return transmitters and States the opportunity
to fully develop and test the functionality needed to transmit individual tax returns through the
MeF system. The IRS has not achieved either of these goals.
Despite the IRS’s efforts to increase participation, we continue to remain concerned that low tax
return transmitter participation and tax return volumes will make it unlikely that the IRS will be
able to transition the e-filing of all individual income tax returns through the MeF system in the
2013 Filing Season. Once the IRS retires the Legacy e-File system in October 2012, any issues
that arise with the ability of the MeF system to receive and process tax returns could have a
significant impact on taxpayers. As of April 18, 2011, the IRS reported that more than
100 million individuals e-filed their tax return. This number will continue to grow as the IRS
fully implements the mandate for tax return preparers who prepare more than 10 tax returns a
year to file those tax returns electronically beginning in January 2012. An interruption in
electronic tax return processing could force taxpayers to file their tax returns on paper,
significantly increasing the amount of time taxpayers must wait to receive their refunds.
Of further concern is that the IRS’s Modernization and Information Technology Service
organization (the developer of the MeF system) is confident regarding the performance of the
MeF system. This organization informed us that based on its testing of the MeF system, it
believes the MeF system can function at expected processing levels. However, discussions with
representatives from the IRS’s Electronic Tax Administration function (the business user of MeF
system) indicate that they also have concerns that system functionality and processing have not
been adequately assessed. While the Modernization and Information and Technology System
organization has tested MeF system performance and capacity through Release 6.2, it has not
been able to test the system for a sustained time period. Without such testing, the IRS cannot be
assured the MeF system can efficiently and accurately process the approximately 100 million
e-file tax returns individuals file each year.

Participation in the MeF system by tax return transmitters and States continues to
be low
Tax return transmitters and States continue to be reluctant to use the MeF system. In response to
our survey, both tax return transmitters and States continue to raise concerns as to whether the
transition to the MeF system will go as planned. The IRS must be responsive to tax return
transmitters’ and States’ concerns so that they will participate in the MeF system now rather than
later. After the 2012 Filing Season, the only means of e-filing will be through the MeF system.
IRS management indicated that they were confident tax return transmitters would make the
switch to the MeF system rather than lose the ability to e-file tax returns. The loss of tax return


                                                                                           Page 12
                         Low Participation and Tax Return Volumes Continue to
                         Hinder the Transition of Individual Income Tax Returns
                                    to the Modernized e-File System



preparers’ ability to e-file tax returns is not an option as there is a legislative mandate13 requiring
preparers to e-file. Beginning in January 2012, tax return preparers who prepare more than
10 tax returns a year must e-file those tax returns.
The number of tax return transmitters and States participating in the MeF system has more than
doubled since the 2010 Filing Season, increasing from 22 tax return transmitters and States
during the 2010 Filing Season to 45 tax return transmitters and States during the 2011 Filing
Season. Figure 4 provides a comparison of the number of tax return transmitters and States
participating in the MeF system for the 2010 and 2011 Filing Seasons.
                      Figure 4: Comparison of Tax Return Transmitters
                          Using the MeF System as of April 18, 2011

                                                                  201014             2011             %
                                                             Filing Season      Filing Season       Change
 Return Transmitters Participating in MeF                           22                45             105%
       Electronic Return Transmitters                               11                20               82%
        States                                                      11                25             127%
Source: IRS.

However, tax return transmitters’ level of participation in the MeF system remains low.
According to the IRS, tax return transmitters used 67 tax return preparation software packages to
prepare and submit tax returns through the Legacy system during the 2011 Filing Season. Of the
67 software packages used to prepare and submit tax returns in the Legacy system, only
19 (28 percent) were used to e-file MeF tax returns.15 In addition, the IRS indicated that
81.4 million tax returns were prepared using software approved for use with the MeF system but
were submitted to the Legacy system. This equates to 82.2 percent of the 99 million tax returns
submitted to the Legacy system as of July 14, 2011. Despite the large number of tax returns
associated with MeF-approved software, the number of tax returns filed through the MeF system
(9.6 million as of July 14, 2011) remains considerably less than what the IRS anticipated.
Tax return transmitters’ and States’ participation in the MeF system is voluntary. Tax return
transmitters and States that intended to participate had to successfully complete the IRS testing
process to ensure their systems met MeF system processing requirements for individual tax
returns before they could begin transmitting tax returns through the MeF system.
IRS management indicated that issues encountered and decisions made by the three largest tax
return transmitters resulted in the volume of tax returns processed through the MeF system being


13
   Pub. L. No. 111-92, 123 Stat. 2984 (2009).
14
   Data for the 2010 Filing Season are through April 15, 2010.
15
   Of the 67 tax preparation software packages used in Legacy, 24 have been approved for use in the MeF system.
                                                                                                        Page 13
                         Low Participation and Tax Return Volumes Continue to
                         Hinder the Transition of Individual Income Tax Returns
                                    to the Modernized e-File System



lower than expected for the 2011 Filing Season. These 3 transmitters process approximately
61.3 million e-file tax returns.16 The IRS anticipated that these transmitters would e-file
40.4 million tax returns using the MeF system for the 2011 Filing Season.17 Only 6 million
(14.9 percent) of the anticipated 40.4 million were e-filed through the MeF system. Issues
encountered and decisions made by these transmitters included:
     •   Two of the three tax return transmitters had problems with the development of the
         software they market to tax return preparers, which drastically reduced the number of tax
         returns processed through the MeF system during the beginning of the filing season.
     •   The third tax return transmitter decided at the last minute not to participate in MeF
         system processing until March 1, 2011. Even then, this transmitter decided to only
         transmit returns from a small portion of its tax preparer community around the country.

Significant concerns regarding technical expertise and system performance
hinder transmitter and State participation in the MeF system
We attempted to solicit input regarding MeF system participation from 19 approved tax return
transmitters and 27 States to obtain their feedback on the MeF system. We received responses
from 11 tax return transmitters (10 participating and 1 not participating) and 15 States
(6 participating and 9 not participating). Survey results identified that State participation is
dependent on internal factors, while tax return transmitter participation is based on concerns with
MeF system performance. Of the States not participating in the MeF system that responded to
our survey:
     •   Four States indicated that their participation in the MeF system has been hindered by
         limitations on the number of available personnel with the technical training and expertise
         necessary to develop an electronic filing system that would be compatible with the IRS’s
         requirements for the MeF system. In a depressed economy, the need to allocate limited
         funding among projects with the highest priorities results in less funding available to
         acquire needed computer programming talents and computer equipment.
     •   One State reported problems with its computer or network that facilitates the sending and
         receiving of MeF system transmissions over the Internet. Technological problems with
         computer hardware limit the ability to connect between networks for transmitting data.
     •   Two States indicated that they were unable to participate in the MeF system because
         approved tax preparation software developers had not yet developed a MeF system
         version of their individual tax returns. The IRS indicated that most tax return transmitters

16
   The number of estimated tax returns is based on historical filing season data of the 23 forms supported by the
MeF system and represent the maximum potential volume of tax returns supported by the MeF system.
17
   The volume estimates include combined Forms 1040, States’ submissions, and Forms 4868. The volume
estimates were provided by transmitters.
                                                                                                            Page 14
                         Low Participation and Tax Return Volumes Continue to
                         Hinder the Transition of Individual Income Tax Returns
                                    to the Modernized e-File System



         will use the Legacy e-File system to transmit Federal tax returns if the State tax return
         must be transmitted using the Legacy e-File system, even if the return could otherwise
         have been transmitted in the MeF system.
While State participation in the MeF system appears to be limited by internal factors, our surveys
of the approved transmitters indicated the lack of participation is due in some part to concerns
with the performance and capability of the MeF system. For example:
     •   Four tax return transmitters were concerned with the performance of the MeF system,
         citing concerns with the timeouts they experienced during the 2011 Filing Season. A
         timeout is an interrupt signal generated by a program or device that has waited a certain
         length of time for some input but has not received it. For example, a timeout for the MeF
         system would prevent tax return transmitters from transmitting tax returns or receiving a
         response from the MeF system. Tax return transmitters reported delays in retrieving
         information, delays in receiving acknowledgements, and/or timeouts three times between
         January 20, 2011, and April 18, 2011. The IRS closed the last reported incident by
         stating that it has been working to identify the root cause to prevent this from happening
         in error again in the future.
     •   Two tax return transmitters were concerned that the IRS implemented major schema18
         changes for the 2011 Filing Season. Transmitters may need to modify their computer
         programs that prepare tax return files for transmission each time the IRS makes changes
         to the schema, or MeF system database structure, for individual tax returns. The time it
         takes to complete these changes can affect the number of tax returns a transmitter is able
         to send through the MeF system.
     •   Three tax return transmitters voiced concerns that tax returns were rejected in the MeF
         system that would not be rejected in the Legacy e-File system. Tax returns may be
         rejected in error if a business rule is programmed incorrectly in the MeF system. The
         same tax return would be accepted for processing in the Legacy e-File system. As
         discussed previously, the risk of such errors is high because of the limitations in the IRS’s
         MeF system testing and monitoring plan. In addition, it is possible for a tax return to be
         rejected in the MeF system if the tax return is not sent in a specified format or schema.
Two tax return transmitters were particularly concerned with the reliability of the web services
the IRS is using to receive tax return transmissions and send acknowledgements to tax return
transmitters via the Internet. One tax return transmitter claimed that the web services the IRS is
using are unstable and have a limited ability to handle a large number of simultaneous



18
   A schema change is a change in the data structure of information. A schema defines the data elements within each
data structure and the interrelationships among the data elements (i.e., what is required, field length, data type,
allowable field values, etc.).
                                                                                                         Page 15
                      Low Participation and Tax Return Volumes Continue to
                      Hinder the Transition of Individual Income Tax Returns
                                 to the Modernized e-File System



transactions. The other transmitter responded that one of the symptoms of the unstable service is
a repeated number of system timeouts.
We raised the transmitters’ concerns with the MeF system web services to IRS management.
IRS management indicated that numerous improvements were made for MeF Release 6.2 to
enhance system performance. In addition, management stated the system was stable and
indicated that most of the external customers they have spoken to have complimented them on
MeF system performance. Management also indicated they have conducted testing of the web
services used by the MeF system and are confident the services are adequate to handle the
current volume of individual tax returns being processed through the MeF system. Additional
testing of the web services is planned as the IRS expands the use of the MeF system for
individual tax returns. We referred the concerns we received regarding the reliability of the
MeF system web services to our Security and Information Technology Services program.

The volume of tax returns e-filed through the MeF system is significantly short of
IRS goals
The number of individual tax returns transmitted through the MeF system as of April 18, 2011,
(8.7 million) is significantly lower than the 35 million individual tax returns the IRS anticipated
for the 2011 Filing Season. Figure 5 provides a comparison of the volume of individual tax
returns transmitted through the MeF system as of April 18, 2011, compared to the number of tax
returns the IRS expected to receive during the 2011 Filing Season.
                        Figure 5: 2011 Filing Season Volume of
                Individual Tax Returns E-Filed Through the MeF System
                           (Expected Versus Actual, as of April 18, 2011)




           Source: Our analysis of 2011 Filing Season statistics through April 18, 2011.

                                                                                           Page 16
                       Low Participation and Tax Return Volumes Continue to
                       Hinder the Transition of Individual Income Tax Returns
                                  to the Modernized e-File System



The tax return volume is low despite the fact that the IRS began accepting individual tax returns
through the MeF system approximately 30 calendar days earlier than it did last year. Although
the volume received is substantially lower than expected, it has increased over the number of tax
returns filed through the MeF system during the 2010 Filing Season. For example, as of
April 18, 2011, the volume of individual tax returns filed through the MeF system (almost
8.7 million tax returns) has increased by 729 percent when compared to the volume filed through
the MeF system for all of the 2010 Filing Season. However, the number of tax returns filed
through the MeF system represents only 7.3 percent of the total population of tax returns e-filed
as of April 18, 2011. Figure 6 below compares the volume of tax returns e-filed through the MeF
and Legacy e-File systems.
        Figure 6: 2011 Filing Season Tax Return Receipts as of April 18, 2011




            Source: Our analysis of 2011 Filing Season statistics through April 18, 2011.

Our prior review reported the same concerns with MeF system participation and
tax return volumes as we are reporting for the 2011 Filing Season
In our prior review,19 we reported that lower than expected tax return transmitter participation
and tax return volumes limit the IRS’s ability to evaluate the performance of the MeF system.


19
  System Errors and Lower Than Expected Tax Return Volumes Affected the Implementation of the Modernized
e-File System for Individual Income Tax Return Processing (Reference Number 2010-40-111, dated
September 8, 2010).
                                                                                                   Page 17
                     Low Participation and Tax Return Volumes Continue to
                     Hinder the Transition of Individual Income Tax Returns
                                to the Modernized e-File System



The IRS anticipated processing 9.3 million tax returns through its MeF system by April 15, 2010.
However, the IRS only received 752,320 tax returns (8 percent). As a result, the IRS was unable
to assess the capability of the system to handle large volumes of tax returns. We recommended
that the IRS work with tax return transmitters and States to identify and address concerns and
conditions that prevented them from participating in the MeF system and encourage them to
participate in it during the 2011 Filing Season.
Management agreed with our recommendation, stating that they had begun working with tax
return transmitters and States to identify and address concerns and conditions that prevented
them from participating in the MeF system and encourage them to participate in the MeF system
during the 2011 Filing Season. The IRS also stated that efforts were underway to identify and
implement system performance enhancements to ensure the MeF system can process the
anticipated volume of individual tax returns for the 2011 Filing Season. The IRS noted that it
has taken steps to address tax return transmitter and State concerns with the performance of the
MeF system. The IRS indicated implementation of this recommendation would start
August 15, 2010, and continue through the 2012 Filing Season, with a target completion of
April 15, 2012. We are conducting a separate review to assess the IRS’s specific system
performance enhancements.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Continue to work with tax return transmitters and States to identify and
address concerns and conditions related to MeF system performance and the use of web services
for the efficient transmission of individual tax returns that are hindering their participation in
MeF system individual tax return filing.
       Management’s Response: IRS management agreed with the recommendation. The
       IRS will continue to work with the tax return transmitter and States to leverage various
       forms of communication to identify and address concerns, as well as to promote features
       and benefits of the MeF program. These outreach/communication activities include:
           •   Software Developer Conferences.
           •   Industry calls.
           •   Working group meetings.
           •   External mailboxes.
           •   Webinars.
           •   QuickAlerts.


                                                                                          Page 18
                     Low Participation and Tax Return Volumes Continue to
                     Hinder the Transition of Individual Income Tax Returns
                                to the Modernized e-File System



           •   Publication 4163 (MeF Information for Authorized IRS e-file Providers for
               Business Returns).
           •   Publication 4164 (MeF Guide for Software Developers and Transmitters).
           •   Other information published to IRS.gov.
       The IRS will continue to use its well established issue tracking and defect process, the
       Integrated Technology Asset Management System, to address MeF Assurance Testing
       System testing and production issues.
Recommendation 4: Ensure MeF system testing includes an assessment of the reliability of
the MeF system performance and the use of web services for individual tax return transmissions.
Testing should also provide assurance that the MeF system has the capacity necessary to receive,
validate, and process the entire volume of individual e-file tax returns the IRS expects to receive
during the 2012 Filing Season, not just those it anticipates receiving through the MeF system.
Such an assessment is vital if the IRS intends to retire the Legacy e-file system at the end of the
2012 Filing Season.
       Management’s Response: IRS management agreed with the recommendation.
       During the Performance Testing activities, the IRS will test a variety of return-type mixes
       and volumes to simulate the production volume expected during the 2012 Filing Season
       and the total e-file volume.

Key Functionality of the Modernized e-File System to Attach Scanned
Documents to Individual Tax Returns Is Not Being Promoted or Used
One of the benefits of the MeF system is the ability for taxpayers to attach supplemental
information to their tax return in a PDF file. The IRS indicated that the Legacy e-File system
was unable to handle the wide variety of required and recommended supporting documents that
would have to be scanned and submitted.
The IRS indicated that it has tested the ability of the MeF system to receive and process PDF
attachments. This testing included individual tax returns with attachments of varying sizes. Tax
return transmitters have reported transmitting some tax returns with PDF attachments through the
MeF system. However, as with tax returns without PDF attachments, we remain concerned that
the volume of tax returns with PDF attachments received may not be enough to provide the IRS
with sufficient information to evaluate whether or not the MeF system can effectively receive,
process, and store a large number of tax returns with PDF attachments.




                                                                                           Page 19
                     Low Participation and Tax Return Volumes Continue to
                     Hinder the Transition of Individual Income Tax Returns
                                to the Modernized e-File System



IRS and tax return transmitters are not promoting the ability to attach scanned
documents to tax returns e-filed through the MeF system
The IRS has not pursued use of the MeF system as an option when individuals are required to
provide specific documentation with their tax returns. For example, recent documentation
verification requirements for claiming the First-Time Homebuyer Credit and Adoption Credit
meant that individuals claiming these credits had to file paper tax returns and could not e-file
their tax returns. The MeF system provides the IRS with the ability to allow these individuals to
scan and attach documents to their e-filed tax returns. In addition, the IRS is not actively
marketing the ability to attach supplemental information to individual tax returns e-filed through
the MeF system.
We reviewed various sources of information related to MeF            Tax return transmitters are
                                                                     not offering taxpayers and
system functionality and found that the IRS has made                  tax return preparers the
transmitters aware of the ability to send attachments with a            option to attach PDF
tax return. However, transmitters are raising concerns               documents to a tax return.
regarding MeF system performance and the attaching of
scanned documents to individual tax returns. During a
May 2011 meeting that the IRS had with tax return transmitters, concerns were raised about the
impact that different sizes of scanned documents and the increase in size of the tax return file
with PDF attachments would have on MeF system processing. The IRS also asked tax return
transmitters’ opinions on the reasonableness of requiring a limited number of tax forms and
schedules (10) that currently cannot be e-filed in the MeF system to be included as PDF
documents during the 2012 Filing Season. These tax forms and schedules are low volume.
Including these as a PDF would alleviate the need to develop programming for these tax forms
and schedules to be accepted via the MeF system for the 2012 Filing Season. Requiring certain
supplemental information to be filed as a PDF document would provide the IRS with valuable
information regarding the ability of the MeF system to receive, process, and store tax returns
with PDF attachments. Two of the tax return transmitters in the meeting stated they would
choose to file tax returns in the Legacy e-File system rather than use the PDF function in the
MeF system.
Our surveys of tax return transmitters confirmed the concerns raised by the two tax return
transmitters in the May 2011 meeting. We identified that tax return transmitters do not appear to
be receptive to including PDF attachments when filing individual tax returns. While tax return
transmitters are aware that PDF documents can be filed with an individual tax return, six tax
return transmitters who responded to our survey indicated they have not provided individuals
with the use of this option or only provided it on a limited basis.
Although the IRS has fully developed and implemented the capability for the MeF system to
accept scanned files, anticipating the number of scanned documents that the IRS may require and
receive in the future presents an added challenge to the IRS in planning the capacity needed to
effectively receive, process, and store tax returns in the MeF system. If the IRS does not

                                                                                          Page 20
                      Low Participation and Tax Return Volumes Continue to
                      Hinder the Transition of Individual Income Tax Returns
                                 to the Modernized e-File System



adequately plan for the ability to receive, store, and retrieve PDF tax return attachments, it could
undermine a very valuable benefit of the MeF system and jeopardize the IRS’s ability to
effectively implement future tax law changes with the least impact on taxpayers.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 5: Adequately test the MeF system to ensure MeF system functionality
related to receiving, processing, storing, and retrieving PDF attachments for individual tax
returns. Testing should include an assessment of the impact various sizes and types of PDF
documentation has on MeF system functionality.
       Management’s Response: IRS management agreed with this recommendation and
       believes it is addressed through testing of MeF system functionality prior to production
       implementation. For the 2011 Filing Season, PDF functionality was tested for all types
       of PDF attachments supported by the MeF system for individual tax returns. Testing was
       performed using PDF files of varying sizes, including files greater than 60 megabytes,
       which caused the returns to be rejected. Testing was performed to verify that the MeF
       system could receive and process the full variety of PDF files, and testing was performed
       on the Modernized Tax Return Database system to verify the system could store and
       display tax returns, forms, and schedules with PDF attachments. The same level of
       testing will be performed as part of the IRS’s annual testing for the 2012 Filing Season
       and is scheduled for completion by December 30, 2011.
Recommendation 6: Promote the functionality of the MeF system in accepting scanned
attachments. In particular, the IRS should offer the use of e-filing through the MeF system when
specific documents are required to be attached to an individual tax return in support of credits,
deductions, etc., for which the IRS has required taxpayers to file a paper tax return.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will continue to promote the benefits of PDF attachments via the IRS.gov website, in
       industry calls and meetings, and in IRS publications and other literature.
       While it is preferred that all forms and schedules implemented on the MeF platform be
       submitted in XML format in support of the IRS data strategy, there are certain situations
       in which PDF attachments are accepted, such as late legislation, other unscheduled forms
       changes, and unstructured data (signatures or third-party documentation).
       As with other deployment decisions, the IRS will continue to seek internal and external
       input and will determine on a case-by-case basis the best format (XML, PDF, or paper)
       for processing forms and supporting documentation.



                                                                                            Page 21
                        Low Participation and Tax Return Volumes Continue to
                        Hinder the Transition of Individual Income Tax Returns
                                   to the Modernized e-File System



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the continued implementation of the MeF
system to determine whether individual income tax returns will be accurately and timely
processed and whether sufficient progress is being made to replace the Legacy e-File system for
individual tax returns in the 2013 Filing Season.1 To accomplish this objective, we:
I.      Determined whether the IRS correctly addressed issues identified in our Fiscal Year 2010
        review of the implementation of MeF system Release 6.12 and verified changes were
        made for Processing Year3 2011.
        A. Obtained documentation of requested MeF system programming changes from the
           IRS Work Request Management System to determine whether programming changes
           were made to correct issues identified in our review of the MeF system Release 6.1.
        B. Analyzed the programming changes described in the IRS Work Request Management
           System to determine if the changes made resolved the issues identified in our review
           of the MeF system Release 6.1.
II.     Determined whether the MeF system correctly rejected and accepted individual income
        tax returns during the 2011 Filing Season.
        A. Obtained the MeF system documentation needed to allow us, with the assistance of
           our Information Services staff and the IRS, to obtain and analyze individual income
           tax returns processed by the MeF system during the 2011 Filing Season.
        B. Obtained IRS statistics on volumes of electronic tax returns transmitted in both the
           Legacy e-File and MeF systems and compared the daily volumes.
        C. Obtained the MeF system individual income tax return data that were accepted and
           processed from the weekly IRS Individual Return Transaction File4 for all accepted
           and processed tax returns. We utilized these data to determine whether the accepted
           tax forms and schedules were correctly processed and IRS corrective action to the

1
  The period from January through mid-April when most individual income tax returns are filed. However,
individuals may continue to file tax returns through October if they apply for an extension of time to file.
2
  System Errors and Lower Than Expected Tax Return Volumes Affected the Implementation of the Modernized
e-File System for Individual Income Tax Return Processing (Reference Number 2010-40-111, dated
September 8, 2010).
3
  The calendar year in which the tax return or document is processed by the IRS.
4
  The Individual Return Transaction File contains all edited, transcribed, and error-corrected data from the
Form 1040 series and related forms for the current processing year and 2 prior years.
                                                                                                        Page 22
                         Low Participation and Tax Return Volumes Continue to
                         Hinder the Transition of Individual Income Tax Returns
                                    to the Modernized e-File System



             issues we identified in our prior audit were effective. We validated the reliability of
             the IRS’s Individual Return Transaction File computer-processed data by comparing
             it with the IRS’s Integrated Data Retrieval System5 and Employee User Portal.6
        D. Surveyed 27 State taxing authorities and 19 approved MeF system transmitters
           regarding individual tax returns transmitted through the MeF system during the
           2011 Filing Season and additional concerns with the MeF system processing season.
III.    Determined whether the IRS adequately tested and monitored MeF system processing for
        individual tax returns during the 2011 Filing Season.
        A. Obtained IRS testing plan and test results from three separate IRS tests, referred to as
           “Production Validation,” conducted in January and February 2011.
        B. Obtained statistics on volumes of tax returns accepted and rejected in the MeF system
           and analyzed the volumes of tax returns reviewed during the IRS testing period.
IV.     Determined whether the IRS promoted the capability of scanning and attaching
        supplemental information to tax returns in a PDF file.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the controls in place to ensure 1) all of the
error reject codes included in the Legacy e-File system were included in the MeF system and
2) tax returns were properly accepted or rejected by the MeF system.




5
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
6
  IRS computer system used to review tax return information transmitted in the MeF system.
                                                                                                             Page 23
                    Low Participation and Tax Return Volumes Continue to
                    Hinder the Transition of Individual Income Tax Returns
                               to the Modernized e-File System



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Sharla J. Robinson, Senior Auditor
Bonnie G. Shanks, Senior Auditor
Lawrence N. White, Senior Auditor
Linna K. Hung, Auditor




                                                                                    Page 24
                    Low Participation and Tax Return Volumes Continue to
                    Hinder the Transition of Individual Income Tax Returns
                               to the Modernized e-File System



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner of Operations SE:W
Chief Technology Officer OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Program Oversight OS:CIO:SM:PO
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                     Page 25
                     Low Participation and Tax Return Volumes Continue to
                     Hinder the Transition of Individual Income Tax Returns
                                to the Modernized e-File System



                                                                                    Appendix IV

   Individual Tax Return Forms and Schedules
          Included for Processing in the
 Modernized e-File System Release 6.2 Deployment

Form Number         Form Name
Form 1040           U.S. Individual Income Tax Return
Schedule A          Itemized Deductions
Schedule B          Interest and Ordinary Dividends
Schedule C          Profit or Loss From Business
Schedule D          Capital Gains and Losses
Schedule E          Supplemental Income and Loss
Schedule EIC        Earned Income Credit
Schedule M          Making Work Pay
Schedule R          Credit for the Elderly or the Disabled
Schedule SE         Self-Employment Tax
Form 1099-R         Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans,
                    IRAs, Insurance Contracts, etc.
Form 2106           Employee Business Expenses
Form 2210           Underpayment of Estimated Tax by Individuals, Estates, and Trusts
Form 2441           Child and Dependent Care Expenses
Form 4562           Depreciation and Amortization
Form 4868           Application of Automatic Extension of Time To File U.S. Individual Income
                    Tax Return
Form 8283           Noncash Charitable Contributions
Form 8812           Additional Child Tax Credit
Form 8829           Expenses for Business Use of Your Home
Form 8863           Education Credits (American Opportunity and Lifetime Learning Credits)
Form 8880           Credit for Qualified Retirement Savings Contributions
Form 8888           Direct Deposit of Refund to More Than One Account
Form W-2            Wage and Tax Statement
Source: IRS.gov web site, Forms and Publications webpages.


                                                                                              Page 26
                          Low Participation and Tax Return Volumes Continue to
                          Hinder the Transition of Individual Income Tax Returns
                                     to the Modernized e-File System



                                                                                                 Appendix V

    Description of Modernized e-File System Release 6.1
    Errors Not Corrected During the 2010 Filing Season

During our review of the processing of individual tax returns for MeF system Release 6.1,1 we
determined that 19 (66 percent) of the 292 business rules we analyzed as of April 21, 2010,
appeared to reject in error or reject the tax returns without providing accurate explanations as to
why they were rejected. The IRS took immediate action to correct 6 of the 19 business rules
with errors. However, the IRS indicated it would correct the remaining 13 business rules in
MeF system Release 6.2. Figure 1 describes the 6 broad issues that resulted from errors in the
13 business rules for which corrective action was not taken during the 2010 Filing Season3 and
the status of the IRS’s actions to correct the errors as of April 18, 2011. Each issue described
may have been caused by one or more of the 13 business rules we identified in our review of
MeF Release 6.1.
                      Figure 1: Description of MeF System Release 6.1
                     Errors Not Corrected During the 2010 Filing Season
                                              Date IRS
                                                Was                                                     Audit
                  Issue                       Notified               IRS Action Taken                  Comment
Programming errors are causing incorrect       3/2/2010    Action Planned                             The IRS has
rejections when there is a dependent                                                                  not corrected
                                                           The IRS planned to make changes for
SSN/name control mismatch and the                                                                     the error.
                                                           Release 6.2 for Processing
business rule that requires the dependent
                                                           Year4 2011. These changes are
SSN and name control to match the e-file
                                                           complex and, as such, were deferred
database generates. If the Earned Income
                                                           to a later release to mitigate the risk
Tax Credit was claimed, the business rule
                                                           to the 2010 Filing Season. An
addressing an SSN/name control
                                                           interim plan was implemented to
mismatch for a qualifying child also
                                                           mitigate the impact on taxpayers.
generates.


1
  System Errors and Lower Than Expected Tax Return Volumes Affected the Implementation of the Modernized
e-File System for Individual Income Tax Return Processing (Reference Number 2010-40-111, dated
September 8, 2010).
2
  We selected these business rules for review based on the volume and concerns identified prior to the IRS accepting
tax returns through the MeF system on February 17, 2010.
3
  The period from January through mid-April when most individual income tax returns are filed. However,
individuals may continue to file tax returns through October if they apply for an extension of time to file.
4
  The calendar year in which the tax return or document is processed by the IRS.
                                                                                                          Page 27
                          Low Participation and Tax Return Volumes Continue to
                          Hinder the Transition of Individual Income Tax Returns
                                     to the Modernized e-File System



                                             Date IRS
                                               Was                                                 Audit
                  Issue                      Notified           IRS Action Taken                  Comment
Tax returns are rejecting in error when      3/2/2010   Action Planned                           The IRS has
the taxpayer correctly provided the prior                                                        corrected the
                                                        The IRS planned to make changes for
year Adjusted Gross Income and/or                                                                error.
                                                        Release 6.2 for Processing Year
Personal Identification Number as
                                                        2011. These changes are complex
required for electronically filed returns.
                                                        and, as such, were deferred to a later
                                                        release to mitigate the risk to the
                                                        2010 Filing Season. The IRS planned
                                                        to take interim action to mitigate the
                                                        impact on taxpayers.
Programming errors are causing incorrect     3/3/2010   Action Planned                           The IRS has
rejections when there is a primary                                                               not corrected
                                                        The IRS planned to make changes for
SSN/name control mismatch and the                                                                the error.
                                                        Release 6.2 for Processing Year
business rule that requires the primary
                                                        2011. These changes are complex
SSN and name control to match the e-file
                                                        and, as such, were deferred to a later
database generates.
                                                        release to mitigate the risk to the
                                                        2010 Filing Season. The IRS planned
                                                        to take interim action to mitigate the
                                                        impact on taxpayers.
Programming errors are causing incorrect     3/5/2010   Action Planned                           The IRS has
rejections when there is a secondary                                                             not corrected
                                                        The IRS planned to make changes for
SSN/name control mismatch and the                                                                the error.
                                                        Release 6.2 for Processing Year
business rule that requires the secondary
                                                        2011. These changes are complex
SSN and name control to match the e-file
                                                        and, as such, were deferred to a later
database generates.
                                                        release to mitigate the risk to the
                                                        2010 Filing Season. The IRS planned
                                                        to take interim action to mitigate the
                                                        impact on taxpayers.




                                                                                                     Page 28
                          Low Participation and Tax Return Volumes Continue to
                          Hinder the Transition of Individual Income Tax Returns
                                     to the Modernized e-File System



                                             Date IRS
                                               Was                                                  Audit
                  Issue                      Notified            IRS Action Taken                  Comment
Programming errors are causing incorrect     3/5/2010    Action Planned                           The IRS has
rejections when there is an employer                                                              not corrected
                                                         The IRS planned to make changes for
name/Employer Identification Number                                                               the error.
                                                         Release 6.2 for Processing Year
mismatch on Wage and Tax Statement
                                                         2011. These changes are complex
(Form W-2) and the business rule that
                                                         and, as such, were deferred to a later
requires the Employer Identification
                                                         release to mitigate the risk to the
Number to match the information in the
                                                         2010 Filing Season. The IRS planned
e-file database generates. We also noted
                                                         to take interim action to mitigate the
a similar condition could exist with payer
                                                         impact on taxpayers.
name/Employer Identification Number
mismatches on Distributions From
Pensions, Annuities, Retirement or
Profit-Sharing Plans, IRAs, Insurance
Contracts, etc. (Form 1099-R) and the
business rule that requires the Employer
Identification Number to match the e-file
database.
Programming errors are causing incorrect     3/12/2010   Action Planned                           The IRS has
rejections for the Making Work Pay                                                                not corrected
                                                       The IRS planned to make changes for
Credit when there is a primary or                                                                 the error.
                                                       Release 6.2 for Processing Year
secondary SSN/name control mismatch
                                                       2011. These changes are complex
and the applicable business rules are
                                                       and, as such, were deferred to a later
correctly applied.
                                                       release to mitigate the risk to the
                                                       2010 Filing Season. The IRS planned
                                                       to take interim action to mitigate the
                                                       impact on taxpayers.
Source: Our review of MeF system Release 6.1 and IRS Unified Work Requests.




                                                                                                      Page 29
      Low Participation and Tax Return Volumes Continue to
      Hinder the Transition of Individual Income Tax Returns
                 to the Modernized e-File System



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 30
Low Participation and Tax Return Volumes Continue to
Hinder the Transition of Individual Income Tax Returns
           to the Modernized e-File System




                                                     Page 31
Low Participation and Tax Return Volumes Continue to
Hinder the Transition of Individual Income Tax Returns
           to the Modernized e-File System




                                                     Page 32
Low Participation and Tax Return Volumes Continue to
Hinder the Transition of Individual Income Tax Returns
           to the Modernized e-File System




                                                     Page 33
Low Participation and Tax Return Volumes Continue to
Hinder the Transition of Individual Income Tax Returns
           to the Modernized e-File System




                                                     Page 34
Low Participation and Tax Return Volumes Continue to
Hinder the Transition of Individual Income Tax Returns
           to the Modernized e-File System




                                                     Page 35
Low Participation and Tax Return Volumes Continue to
Hinder the Transition of Individual Income Tax Returns
           to the Modernized e-File System




                                                     Page 36
